App. No.

In the
Supreme Court of the United States of America

Michael L. Binday,
Petitioner,
v.
United States of America,
Respondent.

PROOF OF SERVICE
Michael L. Binday hereby declares under penalty of perjury under the laws of the United
States that he mailed a copy of this motion to Respondent by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and with firstclass postage prepaid to the following:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D. C. 20530-0001
Executed on June ^ 3 , 2019

Michael L. Binday

7

l

